TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     Filing Characteristics and Examination
                      Results for Small Business Corporate
                                    Returns



                                           June 11, 2010

                              Reference Number: 2010-30-067




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   HIGHLIGHTS


FILING CHARACTERISTICS AND                            filings, the amount of income taxes reported
EXAMINATION RESULTS FOR SMALL                         by corporate returns is significant. In
BUSINESS CORPORATE RETURNS                            Processing Year 2009, IRS records show
                                                      that approximately $11 billion in corporate
                                                      income taxes was reported from about
Highlights                                            542,000 corporate returns.
                                                      One factor that may be contributing to the
Final Report Issued on June 11, 2010                  modest decline in corporate return filings is
                                                      the popularity of organizing a business as a
Highlights of Reference Number: 2010-30-067           partnership or S corporation, which allows
to the Internal Revenue Service Commissioner          the partners and shareholders of these
for the Small Business/Self-Employed Division.        entities to avoid double taxation on business
                                                      profits. According to the IRS, the number of
IMPACT ON TAXPAYERS                                   partnership and S corporation filings is
The Internal Revenue Service (IRS) examines           expected to increase by 49 percent and
income tax returns to determine whether               39 percent, respectively, between 2006
corporations and other taxpayers have                 and 2014.
voluntarily complied with tax laws and reported       IRS officials told us they are not permitted to
the proper amount of tax. Despite continuing          set a target for the examination no-change
efforts to improve its examination process,           rate. However, in 2003, the IRS reported to
Small Business/Self-Employed Division                 Congress that a high no-change rate means
examiners closed almost 1 out of every 3              a significant amount of resources are being
(32 percent) corporate return examinations in         devoted to unproductive examinations, and
Fiscal Year 2009 without recommending any             compliant corporations are being
adjustments. Examinations that result in no           unnecessarily burdened by examinations.
change to the tax reported can result in an
inefficient use of limited examination resources      The results of the National Research Program
and place an unnecessary burden on compliant          study are expected to improve the IRS
taxpayers.                                            examination process by helping ensure the
                                                      taxes on hundreds of billions of dollars of
WHY TIGTA DID THE AUDIT                               income earned by United States corporations
The overall objectives of this review were to         are reported and paid properly. The statistical
analyze IRS data for Fiscal Years 2005 through        validity and comprehensiveness of the study is
2009 and to identify trends in the filings and        designed to provide the IRS with updated
audits of conventional small business corporate       compliance data needed for deciding which
returns. This audit was part of our Fiscal            corporate returns should be examined and how
Year 2010 Annual Audit Plan to highlight the          best to focus examination resources on the
important role a National Research Program            most significant areas of noncompliance.
study could have in understanding what the            WHAT TIGTA RECOMMENDED
filings and audits of corporate returns mean for
tax compliance. If approved and implemented,          Although TIGTA did not make any
the National Research Program study would             recommendations in this report, IRS officials
evaluate the extent to which corporations and         were provided an opportunity to review the draft
their shareholders comply with the tax laws.          report. IRS management did not provide any
                                                      comments on the draft report.
WHAT TIGTA FOUND
Between January 2005 and December 2009,
the number of corporate returns processed
annually by the IRS fell 7 percent, from
almost 2.2 million to approximately 2 million.
Despite the decrease in the number of
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   June 11, 2010


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Filing Characteristics and Examination Results for
                                Small Business Corporate Returns (Audit # 200930041)

 This report presents the results of our review to analyze Internal Revenue Service (IRS) data for
 Fiscal Years 2005 through 2009 and to identify trends in the filings and audits of conventional 1
 small business 2 corporate returns. This review was included in our Fiscal Year 2010 Annual
 Audit Plan to highlight the important role a National Research Program study could have in
 understanding what the filings and audits of corporate returns mean for tax compliance. This
 review addresses the major management challenge of Tax Compliance Initiatives.
 Although we made no recommendations in this report, we did provide IRS officials an
 opportunity to review and provide comments on a draft of this report. IRS management did not
 provide us with any comments on the draft report.
 Copies of this report are also being sent to the IRS managers affected by the report conclusions.
 Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
 Inspector General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.




 1
     Corporations that file U.S. Corporation Income Tax Returns (Form 1120).
 2
     Corporations with assets less than $10 million.
                                 Filing Characteristics and Examination Results for
                                         Small Business Corporate Returns




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Corporate Return Filings Have Decreased Modestly
          but Remain a Substantial Source of Income Tax Revenue...........................Page 3
          National Research Program Results Are Critical to Understanding
          How Well Corporations Are Complying With the Tax Laws ......................Page 5

Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Detailed Figures of Statistical Information..........................Page 14
          Appendix V – Glossary of Terms .................................................................Page 28
        Filing Characteristics and Examination Results for
                Small Business Corporate Returns




                 Abbreviations

AIMS       Audit Information Management System
BRTF       Business Return Transaction File
DIF        Discriminant Index Function
FY         Fiscal Year
IRS        Internal Revenue Service
NRP        National Research Program
PY         Processing Year
SB/SE      Small Business/Self-Employed
U.S.       United States
                             Filing Characteristics and Examination Results for
                                     Small Business Corporate Returns




                                             Background

The corporate income tax is an important source of Federal income taxes. The common method
used by United States (U.S.) corporations to report their income is the U.S. Corporation Income
Tax Return (Form 1120). Due to special situations or because the Internal Revenue Service
(IRS) needs specific information to administer the tax law, some corporations file unique
versions of Form 1120. For example, the U.S. Income Tax Return for an S Corporation
(Form 1120S) 1 is filed by qualifying small corporations that elect to be treated as flowthrough
entities that pass their profits, credits, and other items through to their shareholders, who then
pay the taxes on their individual returns. Another example is the Form 1120 consolidated 2 that is
filed by affiliated corporations that want to combine
their financial data in one return for tax purposes.                We conducted the review to
                                                                          highlight the important role a
This review was included in our Fiscal Year (FY) 2010             NRP study could have in
Annual Audit Plan to highlight the important role a            understanding what the filings
National Research Program 3 (NRP) study could have in          and audits of corporate returns
understanding what the filings and audits of corporate            mean for tax compliance.
returns mean for tax compliance. If approved and
implemented, the NRP study would evaluate the extent
to which corporations and their shareholders comply with the tax laws. The IRS anticipates the
study will involve the identification, selection, and examination of approximately 22,000 tax
returns processed by the IRS for Tax Year 2009 filed by corporations with $50 million or less in
total assets. Like NRP studies covering other types of tax returns, statistically valid sampling
techniques will be used so the results from the examinations can reliably measure the level of
compliance in the universe of corporations filing Form 1120 series tax returns reporting
$50 million or less in total assets.
From a compliance perspective, this effort and other NRP studies are critically important for
several reasons. One of the most important reasons is that the study results are expected to
improve the IRS examination process by helping ensure the taxes on hundreds of billions of
dollars of income earned by U.S. corporations are reported and paid properly. The statistical
validity and comprehensiveness of the NRP study is designed to provide the IRS with updated
compliance data needed for deciding which corporate returns should be examined and how best
to focus examination resources on the most significant areas of noncompliance.


1
  Eligible taxpayers must make an election to be a small corporation by filing Election by a Small Business
Corporation (Form 2553).
2
  Taxpayers file Form 1120 consolidated by filing the regular Form 1120 by checking box 1a in section A.
3
  See Appendix V for a glossary of terms.
                                                                                                              Page 1
                        Filing Characteristics and Examination Results for
                                Small Business Corporate Returns



During the review, we relied on data from IRS databases. Although we did not audit the IRS
databases, we did perform routine tests on the data and noted instances where data elements were
duplicated from the databases. This situation occurred when a taxpayer filed multiple returns.
Where information was missing or records were unable to be matched, we noted this by using
the term “Unknown” in the figures presented throughout the report.
This review was performed at the IRS Small Business/Self-Employed (SB/SE) Division National
Headquarters in New Carrollton, Maryland, during the period September 2009 through
January 2010. Except for not auditing IRS databases to validate the accuracy and reliability of
the information, we conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives. Detailed
information on our audit objectives, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                         Page 2
                         Filing Characteristics and Examination Results for
                                 Small Business Corporate Returns




                                 Results of Review

Organizing a business as a corporation has long provided a way of limiting owners’
(shareholders) personal liability for business debts and court judgments because it is considered
an independent entity, separate from the shareholders who own, control, and/or manage the
business. As a separate entity, the corporation itself realizes a profit or loss, pays taxes to the
IRS, and may distribute profits as dividends to its shareholders. Dividends that are distributed
create a potential for double taxation since the dividends are taxed first as profits of the
corporation and then at the shareholder level when received.
Between January 2005 and December 2009, the number of corporate returns processed annually
by the IRS fell 7 percent, from almost 2.2 million to approximately 2 million. One factor that
may be contributing to the modest decline in corporate return filings is the popularity of
organizing a business as a partnership or S corporation, which allows these entities, as well as
their partners and shareholders, to avoid double taxation on business profits. According to the
IRS, the number of partnership and S corporation filings are expected to increase by 49 percent
and 39 percent, respectively, between 2006 and 2014.

Corporate Return Filings Have Decreased Modestly but Remain a
Substantial Source of Income Tax Revenue
While there was an overall decrease in corporate return filings between Processing Years
(PY) 2005 and 2009, the decrease was not uniform across all segments of the corporate return
filing population. In fact, corporations with assets of $5 million to less than $10 million filed
5 percent more returns in PY 2009 than they did in PY 2005. There was also significant growth
(16 percent) from PYs 2005 to 2009 in the filings of corporate returns with no balance sheet.
However, the increases in these two segments of corporate returns were not enough to offset the
decrease in the filing of corporate returns in three other segments, as shown in Figure 1.




                                                                                             Page 3
                               Filing Characteristics and Examination Results for
                                       Small Business Corporate Returns



       Figure 1: Corporate Return Filings for PYs 2005 and 2009, by Asset Class

                                                               Corporate Return Filings
                Asset Class                      PY 2005                 PY 2009             Percentage Change
     No Balance Sheet                              385,637                 448,992                    16 %
     Less than $250,000                          1,227,169               1,026,452                   -16 %
     $250,000 to less than $1 million              373,487                 348,261                    -7 %
     $1 million to less than $5 million            174,892                 173,570                    -1 %
     $5 million to less than $10 million            28,187                   29,630                    5%
                    Total                        2,189,372               2,026,905                    -7 %

    Source: Our analysis of Business Return Transaction File (BRTF) data for PYs 2005 and 2009.

Despite the overall 7 percent decrease in filings, the amount of income taxes reported in
corporate returns is significant when compared to individual income tax returns. In PY 2009,
IRS records show that more than $1.1 trillion in taxes was reported from about 104 million
individual income tax returns. 4 Comparatively, approximately $11 billion in corporate income
taxes was reported from only about 542,000 corporate returns. 5 On a tax return basis, this
equates to individuals reporting and paying an average of $10,602 in income taxes while
corporations reported and paid an average of $19,813.
In PY 2009, among the top 5 industries with the highest percentage of corporate return filers
were the professional services (12 percent), real estate industry (12 percent), retail trade
(11 percent), construction (11 percent), and wholesale trade (7 percent). That same year, the
professional services and real estate industry sectors reported holding $173 billion in assets and
distributing $96 billion of income in the form of salaries and wages ($63 billion) and other
compensation ($33 billion) to officers.
While seemingly a large amount, the $173 billion in assets held by corporations in the
professional services and real estate industries represented only 21 percent of the total assets
reported on all small corporate returns 6 processed in 2009. Moreover, total income fell 2 percent
from amounts reported on corporate returns processed in PY 2005. In addition, the corporate
returns processed in 2009 showed that shareholders borrowed 139 percent more from
corporations than they did in 2006. The increase in borrowing and decrease in total income may
be reflective of the recent economic downturn.



4
  Number of returns does not include those reporting losses or tax credits that eliminate tax liability.
5
  Number of returns does not include those reporting losses or tax credits that eliminate tax liability.
6
  Corporations with assets less than $10 million.
                                                                                                             Page 4
                           Filing Characteristics and Examination Results for
                                   Small Business Corporate Returns



With businesses continuing to expand operations across international boundaries and engaging in
cross-border transactions, it is not surprising that there was a 12 percent growth in the number of
corporate returns with an attached Form 5471 7 and/or Form 5472 8 from PYs 2005 to 2008. In
general, these forms are information documents that corporations, as well as other businesses,
attach to their income tax returns to report results of foreign operations and amounts from certain
transactions with foreign-related parties.
With U.S. businesses expanding to overseas markets and more foreign entities doing business in
the U.S., the IRS increasingly needs and uses the information provided on these forms as a road
map to assist in identifying international transactions for examination and for combating tax
avoidance schemes that are developing in the international arena. The forms, among other
things, disclose international inter-company transactions. This information can be used as a
starting point for determining whether these related-party transactions for goods, services, and
other property were fairly priced. Both the IRS and Congress are concerned with the loss of
taxes due to questionable transfer pricing arrangements between related parties.

National Research Program Results Are Critical to Understanding
How Well Corporations Are Complying With the Tax Laws
The IRS last collected data on how well corporations complied with the tax law in 1988 under its
Taxpayer Compliance Measurement Program. As we reported in 2004, 9 these data are out of
date and, accordingly, less reliable for identifying, selecting, and examining the corporate returns
that pose the greatest compliance risk. As a result, the IRS increasingly selects corporate returns
for audit under special projects to address specific types of noncompliance such as abusive tax
schemes and transactions.
Due in part to the absence of current compliance data, IRS executives have additionally invested
considerable effort in various initiatives aimed at better focusing examinations. Although we did
not attempt to measure the impact of these various projects and initiatives on the examination
process, IRS statistics show the number of corporate examinations are increasing and taking less
time to complete while generating more recommended additional taxes. Despite these positive
trends, the number of examinations closed with no adjustment remains high, but could be
reduced if NRP data were available to assist in the return identification, selection, and
examination processes.




7
  Information Return of U.S. Persons With Respect To Certain Foreign Corporations.
8
  Information Return of a 25% Foreign-Owned U.S. Corporation or a Foreign Corporation Engaged in a U.S. Trade
or Business.
9
  Additional Efforts Could Further Improve the Execution of the National Research Program (Reference
Number 2004-30-044, dated January 29, 2004).
                                                                                                      Page 5
                                 Filing Characteristics and Examination Results for
                                         Small Business Corporate Returns



The number of corporate returns examined 10 in the SB/SE Division is not likely to
decrease in the near term
The SB/SE Division closed 34 percent more corporate examinations in FY 2009 than it did in
FY 2005. As Figure 2 shows, the increase occurred in every size of corporation the Division
serves, and at least two factors suggest the number of small corporate returns examined will not
likely decrease in the near term.
              Figure 2: SB/SE Division’s Examinations of Corporate Returns
                          in FYs 2005 and 2009, by Asset Class

                                                                Corporate Returns Examined
                  Asset Class                       FY 2005                FY 2009     Percentage Change
      No Balance Sheet                                 1,073                  1,571            46 %
      Less than $250,000                               4,757                  5,348            12 %
      $250,000 to less than $1 million                 2,507                  3,693            47 %
      $1 million to less than $5 million               1,483                  2,590            75 %
      $5 million to less than $10 million                517                   696             35 %
                      Total                           10,337                 13,898            34 %

     Source: Our analysis of Audit Information Management System (AIMS) data for corporate return
     examinations completed in FYs 2005 and 2009.

The first factor is the IRS’ strategic goal of enhancing enforcement of the tax laws, which
involves maintaining examination coverage across all segments of the taxpayer population and in
the areas presenting the greatest compliance risk. Despite the modest decrease expected in the
number of small corporate return filings in the near term, there may not be a corresponding
decrease in the number of small corporate returns examined if coverage is to be maintained over
this segment of the taxpayer population.
In terms of areas presenting the greatest compliance risk, the IRS has identified abusive tax
schemes as a priority area for increased examination activity. According to the IRS Strategic
Plan 2009 - 2013, 11 the focus on abusive tax schemes and transactions will continue to be a
priority and, accordingly, may contribute to increases in the number of corporate returns
examined. For example, in Calendar Year 2000, the IRS published guidance on 10 transactions
that could trigger an examination because they purportedly abuse the tax law, represent a
significant loss of tax revenue, and undermine the public’s confidence in the tax system. By


10
     All examination statistics in this report exclude training returns.
11
     Publication 3744 (4-2009).
                                                                                                      Page 6
                              Filing Characteristics and Examination Results for
                                      Small Business Corporate Returns



Calendar Year 2010, there were 34 such transactions of which at least 17 (50 percent) directly
involved corporations.
The second factor that will likely have an impact on the number of corporate return examinations
is the hiring of new revenue agents. After receiving budget increases in FYs 2009 and 2010, the
IRS is in the midst of its largest hiring initiative in recent years, resulting in the hiring of scores
of new revenue agents, as well as other enforcement personnel. Once hired, in addition to
receiving individual taxation training, revenue agents attend a multi-week training class devoted
solely to corporate and flowthrough entity taxation and subsequently participate in
approximately 3 months of on-the-job training where they examine corporate returns under the
supervision of an on-the-job coach.

Corporate return examinations are taking less time, generating more
recommended additional taxes, and resulting in more agreements
IRS executives continue to invest considerable effort in developing and implementing work
process changes aimed at reducing the length of examinations and better focusing examinations
on areas of high noncompliance. Although we did not attempt to measure the impact the efforts
have had on examination results, IRS statistics show that the length of corporate return audits fell
a modest 4 percent in FY 2009 when compared to FY 2005 (see Appendix IV, Figure 13).
However, as shown in Figure 3, the additional taxes recommended by examiners on an hourly
basis increased by 28 percent from FY 2005 to FY 2009 and increased by 59 percent on a per
return basis during the same period.
         Figure 3: Additional Recommended Taxes in SB/SE Division’s
        Corporate Return Examinations on an Hourly and Return Basis in
                      FYs 2005 and 2009, by Asset Class

                                               Hourly Basis                        Return Basis
                                       FY         FY      Percentage      FY          FY       Percentage
           Asset Class                2005       2009      Change        2005        2009       Change
 No Balance Sheet                     $1,189     $2,015         69 %     $37,660     $65,334          73 %
 Less than $250,000                    $338        $559         65 %      $7,579     $18,690          147 %
 $250,000 to less than $1 million      $531        $548          3%      $14,536     $20,377          40 %
 $1 million to less than $5 million    $576        $607          5%      $24,239     $24,580           1%
 $5 million to less than
 $10 million                           $784        $810          3%      $41,603     $34,246          -18 %
       Overall Averages for
          Asset Classes                $569        $729         28 %     $16,481     $26,287          59 %

Source: Our analysis of AIMS data for corporate return examinations completed in FYs 2005 and 2009.

                                                                                                      Page 7
                                Filing Characteristics and Examination Results for
                                        Small Business Corporate Returns



Besides the favorable patterns in the length of and additional taxes from corporate return
examinations, more corporations are agreeing to the additional taxes recommended during
examinations. This acknowledgement is important from a revenue collection perspective
because, as we have previously reported, 12 the additional taxes owed from agreed examinations
are more likely to be collected than those that are either assessed by default or disputed and
appealed through the IRS administrative processes or the courts.

The number of corporate audits that result in no adjustment is a concern
Despite continuing efforts to improve its examination process, SB/SE Division examiners closed
almost 1 out of every 3 (32 percent) corporate return examinations in FY 2009 without
recommending an adjustment (no change). The no-change rate was substantially higher among
the larger corporate returns examined and remained about the same as in FY 2005. As Figure 4
shows, examiners no changed 44 percent and 42 percent of their examinations in FYs 2005
and 2009, respectively, when assets of $5 million to less than $10 million were reported on a
corporate return. When assets of $1 million to less than $5 million were reported, 44 percent and
36 percent of examinations resulted in no change in FYs 2005 and 2009, respectively.
            Figure 4: FYs 2005 and 2009 Corporate Return No-Change Rates,
                                    by Asset Class

                                                     Corporate Returns No-Change Rates
                 Asset Class                   FY 2005                FY 2009           Percentage Change
      No Balance Sheet                            25 %                  19 %                    -24 %
      Less than $250,000                          36 %                  31 %                    -14 %
      $250,000 to less than $1 million            45 %                  34 %                    -24 %
      $1 million to less than $5 million          44 %                  36 %                    -18 %
      $5 million to less than $10 million         44 %                  42 %                     -5 %
         Overall No-Change Rates for
                 Asset Classes                    39 %                  32 %                    -18 %

     Source: Our analysis of AIMS data for corporate return examinations completed in FYs 2005 and 2009.

Although IRS officials told us they are not permitted to set a target for the no-change rate, they
were not satisfied with the current results. Officials also noted that the additional recommended
taxes from corporate return examinations may be higher than reflected in IRS statistics because
the IRS reports examination results as no change when the adjustments do not affect the


12
  Potential Opportunities Exist to Enhance the Favorable Productivity Trends for Audits Initiated by the Updated
Return Selection Formulas (Reference Number 2009-30-105, dated August 5, 2009).
                                                                                                           Page 8
                        Filing Characteristics and Examination Results for
                                Small Business Corporate Returns



corporate return, even though the adjustments may change a shareholder’s tax return.
Nevertheless, in 2003 the IRS reported to Congress that a high no-change rate means a
significant amount of resources are being devoted to unproductive examinations, and compliant
corporations are being unnecessarily burdened by examinations.
We do not know what the no-change rate should be in examinations of corporate returns.
However, no change to almost 1 out of every 3 corporate returns examined suggests there may
be improvement opportunities in deciding which returns to examine and/or in how well returns
are examined once selected. If implemented, the NRP study for corporate returns that is under
consideration should provide the IRS with the current compliance data needed to better identify
and select problem returns for examination. Consequently, we plan to focus the next phase of
our work in this area on evaluating how well returns are examined.
Besides providing updated data for deciding which corporate returns should be examined, the
NRP study data are expected to be used for other important tax administration activities such as
identifying areas in which filing instructions could be improved, suggesting legislative changes,
and refining estimates of the tax gap. Because of its benefits, numerous stakeholders support the
NRP. In addition to the Treasury Inspector General for Tax Administration, the Government
Accountability Office has discussed and reiterated the need for such compliance data in several
reports and Congressional testimony. The previous IRS Commissioner has indicated the NRP is
critical for measuring the level and sources of noncompliance. In its FY 2005 annual report, the
IRS Oversight Board also expressed support for a NRP assessment of corporate taxpayers.




                                                                                          Page 9
                            Filing Characteristics and Examination Results for
                                    Small Business Corporate Returns



                                                                                   Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to analyze IRS data for FYs 2005 through 2009 and to
identify trends in the filings and audits of conventional 1 small business 2 corporate returns.
During the review, we relied on databases provided to us by the IRS. We did not conduct audit
tests to determine the accuracy and reliability of the information in any of the databases.
However, we did assess the completeness and reliability of the data as described below and
concluded the data were complete, reliable, and adequate to conduct our work. To accomplish
our objectives, we:
I.      Reviewed the types of business entities and the reasons taxpayers chose to file using the
        Form 1120 series of tax returns and analyzed the SB/SE Division Strategic Assessment
        for FYs 2009-2010, published by the SB/SE Division Research organization.
II.     Analyzed the IRS’ Individual Return Transaction File 3 data for PY 2009 to determine the
        number of returns filed and amount of taxes reported.
III.    Analyzed the IRS’ BRTF data for small corporate returns for PYs 2005 through 2009 to
        determine the:
        A. Number of small corporate returns filed by total assets.
        B. Number of small corporate returns filed by industries.
        C. Amount of taxes reported.
        D. Amount of salaries, wages, and other compensation to officers reported in PY 2005
           and PY 2009.
        E. Amount of loans to shareholders reported in PY 2006 and PY 2009.
IV.     Analyzed the IRS’ AIMS data for small corporate returns for FYs 2005 through 2009 to
        determine the:
        A. Number of small corporate returns examined. 4
        B. Amount of additional taxes recommended for the small corporate returns examined.


1
  Corporations that file U.S. Corporation Income Tax Returns (Form 1120).
2
  Corporations with assets less than $10 million.
3
  See Appendix V for a glossary to terms.
4
  All examination statistics in this report exclude training returns.
                                                                                           Page 10
                        Filing Characteristics and Examination Results for
                                Small Business Corporate Returns



        C. Length of examinations for the small corporate returns examined.
        D. No-change rates for the small corporate returns examined.
        E. No-change rates by types of examinations for the small corporate returns examined.
        F. Number of training returns examined by total assets.
V.      Analyzed revenue agent hiring for FYs 2005 through 2009.
VI.     Analyzed revenue agent training agenda.
VII.    Discussed and obtained IRS management’s input on filing and examination trends.
VIII.   Assessed the completeness and reliability of Individual Return Transaction File, BRTF,
        and AIMS data to complete the above objectives.
        A. Reconciled BRTF data to IRS Data Books for PYs 2005 through 2009.
        B. Reconciled BRTF data to Business Master File data.
        C. Reconciled Individual Return Transaction File data to the IRS’ Statistics of Income
           Bulletin - Winter 2010.
        D. Reconciled Individual Return Transaction File data to Individual Master File data.
        E. Reconciled closed AIMS data for FYs 2005 to 2009 with appropriate sections of
           Table 37, Examination Program Monitoring report.
        F. Reconciled closed AIMS data with Business Master File data.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We did not assess internal
controls because they were not significant to the review.




                                                                                         Page 11
                       Filing Characteristics and Examination Results for
                               Small Business Corporate Returns



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Robert Jenness, Audit Manager
William Tran, Lead Auditor
Julia Tai, Senior Auditor




                                                                                      Page 12
                      Filing Characteristics and Examination Results for
                              Small Business Corporate Returns



                                                                          Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Research, Small Business/Self-Employed Division SE:S:R
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                Page 13
                                   Filing Characteristics and Examination Results for
                                           Small Business Corporate Returns



                                                                                                                     Appendix IV

              Detailed Figures of Statistical Information

Figure 1 – Corporate Return Filings by Asset Class.................................................Page 15
Figure 2 – Industry Composition of Corporate Return Filings.................................Page 16
Figure 3 – Corporate Return Filings by Industry Classification...............................Page 17
Figure 4 – Corporate Return Examinations by Asset Class......................................Page 18
Figure 5 – Top Six Industry Classifications of Corporate Return Examinations .....Page 19
Figure 6 – Corporate Return Audit No-Change Rates by Asset Class .....................Page 20
Figure 7 – Discriminant Index Function (DIF) and DIF-Related Corporate
Return No-Change Rates ..........................................................................................Page 21
Figure 8 – Non-DIF Corporate Return No-Change Rates ........................................Page 22
Figure 9 – Corporate Return No-Change Rate by Industry ......................................Page 23
Figure 10 – Additional Recommended Taxes in Corporate Return Audits..............Page 24
Figure 11 – Additional Recommended Taxes in Corporate Return Audits
on an Hourly Basis....................................................................................................Page 25
Figure 12 – Additional Recommended Taxes in Corporate Return Audits
by Return...................................................................................................................Page 26
Figure 13 – Average Length of Corporate Return Audits by Asset Class................Page 27
Figure 14 – Training Return Examinations by Asset Class......................................Page 27




                                                                                                                                  Page 14
                                Filing Characteristics and Examination Results for
                                        Small Business Corporate Returns



                            Figure 1 – Corporate Return Filings by Asset Class
Between January 2005 and December 2009, the number of small corporate returns 1 processed
annually by the IRS fell 7 percent, from almost 2.2 million to approximately 2 million. The
decrease was not uniform across all segments of the corporate return filing population. In fact,
the number of larger corporations in this filing population, those with assets of $5 million to less
than $10 million, filed 5 percent more returns in PY 2009 than they did in PY 2005. There was
also significant growth (16 percent) from PY 2005 to PY 2009 in the filings of corporate returns
with no balance sheet. However, the increases in these two segments of corporate returns were
not enough to offset the decrease in the filings of the three other segments of corporate returns.
                                                                                                   Percentage
                                                        Processing Years                            Change
        Asset Class            2005           2006            2007           2008        2009      2005-2009
     No Balance Sheet          385,637        403,009        440,043        464,040     448,992       16 %
     Less than $250,000      1,227,169      1,184,892       1,119,672      1,104,608   1,026,452      -16 %
     $250,000 to less
     than $1 million           373,487        371,996        359,374        364,361     348,261        -7 %
     $1 million to less
     than $5 million           174,892        179,203        177,273        181,652     173,570        -1 %
     $5 million to less
     than $10 million           28,187         29,482         29,905         30,653      29,630        5%

            Total            2,189,372      2,168,582       2,126,267      2,145,314   2,026,905      -7 %

    Source: Our analysis of BRTF 2 data for PYs 2005 – 2009.
                                  F




1
    Corporations with assets less than $10 million.
2
    See Appendix V for a glossary of terms.
                                                                                                        Page 15
                              Filing Characteristics and Examination Results for
                                      Small Business Corporate Returns



                    Figure 2 – Industry Composition of Corporate Return Filings
The top 5 industry classifications accounted for 52 percent of all small corporate filings in
PY 2009. “Professional, Scientific, and Technical Services” and “Real Estate and Rental and
Leasing” made up 24 percent of these corporate filings in PY 2009. 3

                                                                       Professional, Scientific, and
                           96,426 , 5%         244,591 , 12%           Technical Services
                                                                       Real Estate and Rental and
                                                                       Leasing
                                                     243,366 , 12%
                                                                       Retail Trade

                                                                       Construction
       872,547 , 43%                                   217,895 , 11%
                                                                       Wholesale Trade

                                                    214,573 , 11%      Others

                                                                       Unknown
                                            137,507 , 7%


Source: Our analysis of BRTF data for PY 2009.




3
    Total may not add up to 100% due to rounding.
                                                                                             Page 16
                                 Filing Characteristics and Examination Results for
                                         Small Business Corporate Returns



                   Figure 3 – Corporate Return Filings by Industry Classification
Corporate returns processed in PYs 2005 - 2009 were concentrated in the real estate and
professional, scientific, and technical services sectors. The filings for the top 5 industry
categories of corporate returns decreased by 7 percent during this period.

                                                                                                 Percentage
                                                        Processing Years                          Change
   Industry Classification            2005       2006         2007         2008       2009       2005-2009
 Professional, Scientific, and
 Technical Services                   259,371    255,148      251,412      253,944    244,591       -6 %
 Real Estate and Rental and
 Leasing                              248,776    255,019      255,139      258,884    243,366       -2 %

 Retail Trade                         243,152    240,127      230,752      231,354    217,895      -10 %

 Construction                         233,136    236,303      232,928      232,674    214,573       -8 %

 Wholesale Trade                      148,006    147,234      142,538      145,965    137,507       -7 %
       Totals for Top Five
       Industries                   1,132,441   1,133,831   1,112,769   1,122,821    1,057,932      -7 %
 Health Care and Social
 Assistance                           146,037    142,303      139,712      137,892    133,199       -9 %
 Other Services (except Public
 Administration)                      133,507    134,788      134,136      137,264    132,510       -1 %
 Manufacturing                        118,642    115,784      111,637      112,073    104,855      -12 %
 Finance and Insurance                 89,652     89,167       88,202       89,028     84,208       -6 %
 Accommodation and Food
 Services                              88,898     90,324       88,901       90,254     86,719       -2 %
 Transportation and Warehousing        73,264     74,629       75,528       77,341     73,573        0%
 Agriculture, Forestry, Fishing,
 and Hunting                           68,148     67,818       65,018       67,158     64,687       -5 %
 Administrative and Support and
 Waste Management and
 Remediation Services                  64,349     64,694       65,380       67,422     65,638        2%
 Information                           42,711     42,457       42,407       43,466     41,505       -3 %
 Arts, Entertainment, and
 Recreation                            39,941     39,479       39,387       40,765     38,754       -3 %
 Mining, Quarrying, and Oil and
 Gas Extraction                        15,404     15,343       15,040       15,722     15,385        0%
 Management of Companies and
 Enterprises                        14,658      14,945         14,890      15,436       15,020       2%
 Educational Services               12,014      12,040         12,092      12,595       12,307       2%
 Utilities                           4,290       4,082          4,186       4,161        4,127      -4 %
 Public Administration                 119          90             76          92           60     -50 %
 Unknown                           145,297     126,808        116,906     111,824       96,426     -34 %
           Totals               2,189,372 2,168,582         2,126,267   2,145,314    2,026,905      -7 %
Source: Our analysis of BRTF data for PYs 2005 – 2009.


                                                                                                     Page 17
                                Filing Characteristics and Examination Results for
                                        Small Business Corporate Returns



                        Figure 4 – Corporate Return Examinations by Asset Class
Small corporate return examinations 4 increased 34 percent between FYs 2005 and 2009 with the
largest increase, 75 percent, taking place in corporate returns with assets of $1 million to less
than $5 million.
                                                                                              Percentage
                                                           Fiscal Years                        Change
            Asset Class            2005          2006          2007       2008     2009       2005-2009
         No Balance Sheet          1,073           987         1,268       1,518    1,571           46 %
         Less than $250,000        4,757         3,743         5,315       4,846    5,348           12 %
         $250,000 to less
         than $1 million           2,507         2,201         3,213       3,296    3,693           47 %
         $1 million to less
         than $5 million           1,483         1,797         2,109       2,522    2,590           75 %
         $5 million to less
         than $10 million            517           764           725        735       696           35 %

                Total             10,337         9,492        12,630      12,917   13,898           34 %

       Source: Our analysis of AIMS data for corporate examinations completed in FYs 2005 – 2009.




4
    All examination results in this report exclude training returns.
                                                                                                       Page 18
                             Filing Characteristics and Examination Results for
                                     Small Business Corporate Returns



       Figure 5 – Top Six Industry Classifications of Corporate Return Examinations
Examinations of small corporate returns in the construction and the wholesale trade industry
classifications increased 166 percent and 149 percent, respectively, between FY 2005 and
FY 2009.
                                                                                             Percentage
                                                      Fiscal Years                            Change
  Industry Classification         2005        2006        2007         2008        2009      2005-2009

 Professional, Scientific, and
 Technical Services               2,678       1,269       1,986        1,762       2,093        -22 %

 Health Care and Social
 Assistance                       2,388       1,030       1,850        1,232       1,147        -52 %
 Construction                      879        1,398       1,720        1,929       2,336       166 %
 Retail Trade                      699          940       1,273        1,236       1,333        91 %
 Manufacturing                     564          699         724         941        1,016        80 %
 Wholesale Trade                   451          683         882        1,060       1,124       149 %

      Totals for Top Six
         Industries               7,659       6,019       8,435        8,160       9,049        18 %

Source: Our analysis of AIMS data for corporate examinations completed in FYs 2005 – 2009.




                                                                                                 Page 19
                          Filing Characteristics and Examination Results for
                                  Small Business Corporate Returns



             Figure 6 – Corporate Return Audit No-Change Rates by Asset Class
The overall corporate return no-change rate decreased 18 percent from 39 percent to 32 percent
between FYs 2005 and 2009. The largest decreases were in returns with no balance sheet and
returns with assets between $250,000 to less than $1 million, which decreased 24 percent from a
25 percent no-change rate to a 19 percent no-change rate, and a 45 percent no-change rate to a
34 percent no-change rate between FYs 2005 and 2009, respectively.
                                                                                           Percentage
                                                  Fiscal Years                              Change
        Asset Class         2005         2006         2007         2008         2009       2005-2009
     No Balance Sheet        25 %         23 %         26 %         21 %         19 %          -24 %
     Less than $250,000      36 %         35 %         40 %         27 %         31 %          -14 %
     $250,000 to less
     than $1 million         45 %         39 %         37 %         30 %         34 %          -24 %
     $1 million to less
     than $5 million         44 %         39 %         39 %         32 %         36 %          -18 %
     $5 million to less
     than $10 million        44 %         49 %         46 %         37 %         42 %           -5 %
     Overall No-Change
      Rates for Asset
          Classes            39 %         37 %         38 %         28 %         32 %          -18 %

   Source: Our analysis of AIMS data for corporate return examinations completed in FYs 2005 – 2009.




                                                                                                       Page 20
                          Filing Characteristics and Examination Results for
                                  Small Business Corporate Returns



    Figure 7 – Discriminant Index Function (DIF) and DIF-Related Corporate Return
                                   No-Change Rates
The overall DIF and DIF-related no-change rate decreased by 5 percent in FY 2009 when
compared to FY 2005. The largest decrease of 15 percent occurred in returns with assets
between $1 million to less than $5 million.
                                                                                           Percentage
                                                  Fiscal Years                              Change
        Asset Class         2005         2006         2007         2008         2009       2005-2009
     No Balance Sheet        26 %         37 %         36 %          23 %        27 %           4%
     Less than $250,000      35 %         40 %         36 %          29 %        40 %          14 %
     $250,000 to less
     than $1 million         41 %         39 %         35 %          31 %        37 %         -10 %
     $1 million to less
     than $5 million         48 %         41 %         38 %          34 %        41 %         -15 %
     $5 million to less
     than $10 million        50 %         52 %         49 %          36 %        49 %           -2 %
     Overall No-Change
      Rates for Asset
          Classes            41 %         41 %         37 %          30 %        39 %           -5 %

   Source: Our analysis of AIMS data for corporate return examinations completed in FYs 2005 – 2009.




                                                                                                       Page 21
                          Filing Characteristics and Examination Results for
                                  Small Business Corporate Returns



                    Figure 8 – Non-DIF Corporate Return No-Change Rates
The overall non-DIF corporate return no-change rate decreased by 37 percent in FY 2009 when
compared to FY 2005. The largest decrease of 40 percent occurred in returns with no balance
sheet.
                                                                                           Percentage
                                                  Fiscal Years                              Change
       Asset Class          2005         2006         2007         2008         2009       2005-2009
    No Balance Sheet         25 %         18 %         22 %        19 %          15 %         -40 %
    Less than $250,000       36 %         33 %         43 %        25 %          23 %         -36 %
    $250,000 to less
    than $1 million          45 %         38 %         39 %        28 %          29 %         -36 %
    $1 million to less
    than $5 million          43 %         38 %         41 %        30 %          29 %         -33 %
    $5 million to less
    than $10 million         41 %         46 %         43 %        39 %          34 %         -17 %
    Overall No-Change
     Rates for Asset
         Classes             38 %         34 %         39 %        27 %          24 %         -37 %

   Source: Our analysis of AIMS data for corporate return examinations completed in FYs 2005 – 2009.




                                                                                                       Page 22
                                 Filing Characteristics and Examination Results for
                                         Small Business Corporate Returns



                        Figure 9 – Corporate Return No-Change Rate by Industry
The overall corporate return no-change rate decreased by 16 percent between FYs 2005 and
2009. The largest decrease of 37 percent occurred in Educational Services.
                                                                                                 Percentage
                                                          Fiscal Years                            Change
    Industry Classification            2005       2006        2007        2008        2009       2005-2009
 Professional, Scientific, and
 Technical Services                     48 %      38 %         43 %        34%          35%        -27 %
 Health Care and Social Assistance      34 %      39 %         51 %        27%          27%        -21 %
 Construction                           34 %      32 %         34 %        26 %        30 %        -12 %
 Manufacturing                          42 %      39 %         41 %        28 %        38 %        -10 %
 Retail Trade                           33 %      36 %         32 %        27 %        31 %          -6 %
 Wholesale Trade                        47 %      45 %         38 %        35 %        36 %        -23 %

 Real Estate and Rental and Leasing     38 %      39 %         32 %        26 %        31 %        -18 %
 Arts, Entertainment, and Recreation    53 %      40 %         41 %        28 %        36 %        -32 %
 Finance and Insurance                  33 %      34 %         36 %        27 %        31 %          -6 %
 Administrative and Support and
 Waste Management and
 Remediation Services                   41 %      36 %         32 %        29 %        33 %        -20 %
 Other Services (except Public
 Administration)                        33 %      31 %         27 %        25 %        28 %        -15 %

 Transportation and Warehousing         32 %      38 %         36 %        26 %        31 %          -3 %
 Agriculture, Forestry, Fishing, and
 Hunting                                38 %      36 %         37 %        24 %        28 %        -26 %
 Accommodation and Food Services        34 %      39 %         35 %        26 %        25 %        -26 %
 Information                            42 %      40 %         36 %        27 %        43 %          2%
 Management of Companies and
 Enterprises                            40 %      35 %         61 %        44 %        51 %         28 %
 Mining, Quarrying, and Oil and
 Gas Extraction                         40 %      40 %         38 %        31 %        36 %        -10 %
 Educational Services                   41 %      27 %         49 %        21 %        26 %        -37 %
 Utilities                              31 %      17 %         43 %        14 %        20 %        -35 %
  Overall No-Change Rates for
    Industry Classifications            38 %      36 %         38 %        28 %        32 %        -16 %

        Source: Our analysis of AIMS data for corporate return examinations completed in FYs 2005 – 2009.

                                                                                                      Page 23
                           Filing Characteristics and Examination Results for
                                   Small Business Corporate Returns



            Figure 10 – Additional Recommended Taxes in Corporate Return Audits
The additional taxes recommended by examiners increased 114 percent in FY 2009 when
compared to FY 2005. The largest increase of 177 percent occurred in returns with assets less
than $250,000.
                                                                                                  Percentage
                                                     Fiscal Years                                  Change
    Asset Class           2005           2006           2007           2008           2009        2005-2009

 No Balance Sheet       $40,408,903    $25,377,020    $26,773,559    $27,812,723   $102,639,335      154 %

 Less than $250,000     $36,053,482    $40,712,723    $62,259,449    $76,523,042    $99,956,174      177 %
 $250,000 to less
                        $36,442,550    $36,726,414    $62,888,003    $69,878,140    $75,251,914      106 %
 than $1 million
 $1 million to less
                        $35,947,022    $41,510,827    $64,393,321    $70,056,347    $63,660,999       77 %
 than $5 million
 $5 million to less
                        $21,508,505    $13,007,802    $38,562,962    $24,195,102    $23,835,021       11 %
 than $10 million

        Total          $170,360,462   $157,334,786   $254,877,294   $268,465,354   $365,343,443     114 %

Source: Our analysis of AIMS data for corporate return examinations completed in FYs 2005 – 2009.




                                                                                                      Page 24
                          Filing Characteristics and Examination Results for
                                  Small Business Corporate Returns



               Figure 11 – Additional Recommended Taxes in Corporate Return
                                  Audits on an Hourly Basis
The additional taxes recommended by examiners on an hourly basis increased 28 percent in
FY 2009 when compared to FY 2005. The largest increase of 69 percent occurred in returns
with no balance sheet.
                                                                                              Percentage
                                                 Fiscal Years                                  Change
    Asset Class          2005           2006          2007          2008          2009        2005-2009
 No Balance Sheet       $1,189           $702          $623          $567        $2,015             69 %
 Less than $250,000       $338           $266          $343          $443         $559              65 %
 $250,000 to less
 than $1 million          $531           $377          $481          $525         $548              3%
 $1 million to less
 than $5 million          $576           $490          $670          $704         $607              5%
 $5 million to less
 than $10 million         $784           $337        $1,075          $753         $810              3%
  Overall Averages
  for Asset Classes       $569           $384          $523          $552         $729              28 %

Source: Our analysis of AIMS data for corporate return examinations completed in FYs 2005 – 2009.




                                                                                                     Page 25
                          Filing Characteristics and Examination Results for
                                  Small Business Corporate Returns



   Figure 12 – Additional Recommended Taxes in Corporate Return Audits by Return
The additional taxes recommended by examiners on a return basis increased 59 percent in
FY 2009 when compared to FY 2005. The largest increase of 147 percent occurred in returns
with assets less than $250,000.
                                                                                             Percentage
                                                 Fiscal Years                                 Change
     Asset Class          2005          2006          2007         2008          2009        2005-2009
  No Balance Sheet      $37,660       $25,711      $21,115       $18,322       $65,334          73 %
  Less than $250,000     $7,579       $10,877      $11,714       $15,791       $18,690         147 %
  $250,000 to less
  than $1 million       $14,536       $16,686      $19,573       $21,201       $20,377          40 %
  $1 million to less
  than $5 million       $24,239       $23,100      $30,533       $27,778       $24,580           1%
  $5 million to less
  than $10 million      $41,603       $17,026      $53,190       $32,919       $34,246         -18 %
   Overall Averages
   for Asset Classes    $16,481       $16,576      $20,180       $20,784       $26,287          59 %

 Source: Our analysis of AIMS data for corporate return examinations completed in FYs 2005 – 2009.




                                                                                                     Page 26
                             Filing Characteristics and Examination Results for
                                     Small Business Corporate Returns



            Figure 13 – Average Length of Corporate Return Audits by Asset Class
The length of examinations as measured by average cycle time declined a modest 4 percent, from
24 months to 23 months between FYs 2005 and 2009. The largest decrease of 32 percent
occurred in returns with assets of $5 million to less than $10 million.
                                                                                              Percentage
                                                   Fiscal Years                                Change
       Asset Class            2005      2006         2007          2008          2009         2005-2009
  No Balance Sheet            22 mo.    23 mo.        23 mo.        23 mo.        23 mo.             5%
  Less than $250,000         23 mo.     25 mo.        26 mo.        24 mo.        24 mo.             4%
  $250,000 to less than
  $1 million                 23 mo.     25 mo.        24 mo.        22 mo.        22 mo.             -4 %
  $1 million to less than
  $5 million                 29 mo.     26 mo.        26 mo.        20 mo.        22 mo.            -24 %
  $5 million to less than
  $10 million                31 mo.     27 mo.        25 mo.        21 mo.        21 mo.            -32 %
  Average Exam Length
    for Asset Classes        24 mo.     25 mo.        25 mo.        22 mo.        23 mo.             -4 %

Source: Our analysis of AIMS data for corporate return examinations completed in FYs 2005 – 2009.

                      Figure 14 – Training Return Examinations by Asset Class
The number of training returns increased 9 percent in FY 2009 as compared to FY 2005. The
largest increase of 2,015 percent was in returns with assets of $1 million to less than $5 million.
                                                                                              Percentage
                                                 Fiscal Years                                  Change
    Asset Class             2005       2006          2007          2008          2009         2005-2009
 No Balance Sheet            241         568             326         221           138                -43 %
 Less than $250,000         2,031      2,035          2,655         2,648         1,571               -23 %
 $250,000 to less
 than $1 million             793         903          1,385         1,532         1,076               36 %
 $1 million to less
 than $5 million              27          61             640         845           571              2,015 %
 $5 million to less
 than $10 million              6            2              8           29            14              133 %

        Total               3,098      3,569          5,014         5,275         3,370                9%

Source: Our analysis of AIMS data for FYs 2005 – 2009.


                                                                                                      Page 27
                        Filing Characteristics and Examination Results for
                                Small Business Corporate Returns



                                                                                 Appendix V

                               Glossary of Terms

Audit Information Management System – A computer system used by the SB/SE Division and
others to control returns, input assessments/adjustments to the Master File, and provide
management reports.
Balance Sheet – An accounting tool used to show the financial condition of a business at a
particular date.
Business Master File – The IRS database that consists of Federal tax-related transactions and
accounts for businesses. These include employment taxes, income taxes on businesses, and
excise taxes.
Business Return Transaction File – A computer file of transcribed line items on all business
returns and their accompanying forms and schedules.
Discriminant Index Function – Mathematical formulas used by the IRS to calculate and assign
a score for all individual returns based on their examination potential.
Flowthrough Entities – Certain entities, such as partnerships and S corporations, that generally
distribute their income, losses, credits, and other tax items to their owners untaxed.
Individual Master File – The IRS database that maintains transactions or records of individual
tax accounts.
Individual Return Transaction File – A computer file containing data transcribed from initial
input of the original individual tax returns during return processing. Subsequent or amended
return data are not contained in the file.
IRS Oversight Board – A nine-member independent body charged to oversee the IRS in its
administration, management, conduct, direction, and supervision of the execution and application
of the internal revenue laws and to provide experience, independence, and stability to the IRS so
it may move forward in a cogent, focused direction.
National Research Program – Research conducted by the IRS to determine filing, payment,
and reporting compliance by taxpayers for different types of taxes. The IRS established the
program in Calendar Year 2000 to resume measuring taxpayers’ voluntary compliance.
Processing Year – The calendar year in which tax returns and other tax data are processed by
the IRS.



                                                                                         Page 28
                        Filing Characteristics and Examination Results for
                                Small Business Corporate Returns



Revenue Agents – Employees in the Examination function who conduct face-to-face
examinations of more complex tax returns such as businesses, partnerships, corporations, and
specialty taxes (e.g., excise tax returns).
S Corporation – A small business corporation with a limited number of shareholders that elects
to be a flowthrough entity for income tax purposes.
Tax Gap - The difference between what taxpayers should have paid and what they actually paid
timely.
Tax Year – Annual accounting period taxpayers use to keep records and report income and
expenses on their tax returns.
Taxpayer Compliance Measurement Program – The IRS’ method of data collection that
audits every line on tax returns for a random sample of taxpayers.




                                                                                        Page 29
